                                  EVALUATION




 COORDINATION OF EFFORTS TO
 ADDRESS INDIAN LAND
 FRACTIONATION




Report No.: WR-EV-BIA-0002-2010     January 2011
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OFTHE INTERIOR


                                                                              JAN 04 2011
Memorandum

To:            David J. Hayes
               Deputy Secretary

From:          Mary L. Kendall    ~./I./.
               Acting Inspector   G!ner~
Subject:       Evaluation - Coordination of Efforts to Address Indian Land Fractionation
               Report No. WR-EV-BIA-0002-2010

         In December 2009, Department of the Interior (Department) Secretary Ken Salazar
announced the settlement of the long-running and highly contentious Cabell class-action lawsuit
regarding the U.S. government' s trust management and account of over three hundred thousand
individual American Indian trust accounts. Among other things, the settlement provides for a
$1.9 billion fund to be established for the voluntary buy-back and consolidation of fractionated
land interests. In light of this announcement, the Office of the Inspector General initiated an
evaluation of the Department' s land consolidation program, recognizing that the settlement must
still be approved by Congress. Congress did approve the settlement on December 8, 2010.

        Our objective was to identify challenges to implementing the settlement and solving the
long-standing problem of Indian land fractionation. Fractionation is the result of allotments that
have been divided among heirs through probate. With each generation, the amount of
fractionation increases. We identified two primary opportunities for the Department to ensure
successful land consolidation efforts: improving communication and identifying needed
resources. This evaluation is the first in a series of advisories on the Indian land consolidation
provisions of the settlement. Future advisories will focus on specific areas of the Indian land
consolidation process, such as Appraisals, Title, and Probate.

        We interviewed officials at the Department, Bureau of Indian Affairs (BIA), and Office
of the Special Trustee for American Indians (OST) whose coordination is necessary for the
effective consolidation of Indian lands. We also interviewed officials at the Office of
Management and Budget (OMB) and Intertribal Monitoring Association on Indian Trust (ITMA)
to gain additional perspectives on current and future Indian land consolidation goals and
outcomes (see Appendix 1 for a listing of all offices contacted). We conducted this evaluation in
accordance with the Quality Standards for Inspections issued by the President's Council on
Integrity and Efficiency.

       The draft report contained six recommendations directed to the Deputy Secretary. In the
Department' s December 3, 2010 response to the draft report (Appendix 2), the Deputy Secretary
concurred or partially concurred with all recommendations. Based on the response, we requested



                               Office of Inspector General I Washington, DC
additional information for all of the recommendations (see Appendix 3 for the status of the
recommendations).

       We respectfully request a written response to this report, number WR-EV-BIA-0002-
2010, within 30 days. The response should provide information on actions taken or planned to
address report recommendations, target dates, and titles of the officials responsible for
implementation. Please address your response to:

       Ms. Kimberly Elmore
       Assistant Inspector General for Audits, Inspections, and Evaluations
       U.S. Department of the Interior
       Office of Inspector General
       1849 C Street, NW, MS 4428
       Washington, DC 20240

        If you have any questions regarding this memorandum or the subject report, please do not
hesitate to contact me at 202-208-5745.

Attachment




                                                2
                                                                                          Attachment
Background

       The General Allotment Act of 1887 divided Tribal land into parcels and allotted them to
individual Indians. At that time, each Indian owned 100 percent interest in their allotment.
Because wills were not widely used, smaller and smaller undivided interests descended to
successive generations (see Figure 1). Today, some of the original allotments are owned by as
many as 1,000 individual heirs.

                             What Are Undivided Interests?
                            Undivided interests are expressed as a fraction of
                            ownership of allotted lands. Today, approximately
                            267,000 owners have about 4.1 million interests in over
                            10 million acres of allotted land.

                                                       
                                   Initial ownership of one Indian allotment =
                                              One ownership interest




                                            
                                            
                                                     
                                              = 1/4 Interest
                                As ownership passes to heirs, ownership interests
                                       increase with each generation



                                                     
                                
                                
                                  
                                    
                                      = 1/12 Interests
                                     Each heir has an undivided interest in the
                                                 entire allotment



Figure 1. Explanation of undivided interests.

        While responsibility to American Indians has consistently been identified by the OIG in
recent years as a top management challenge for the Department, the Federal Government has
long acknowledged the resulting complexity from fractionation on Indian trust operations. In a
Statement from the Chairmen of the House Committee on Interior and Insular Affairs, 1960:

        For many years we have recognized that one of the most serious problems facing
        our American Indian population is that of [inherited] land. With each passing
        generation the difficulties of solving this problem multiply and if some solution is
        not forthcoming it will be so acute by the turn of the century that the Federal
        Government will be unable to bear the burden of handling the administration of
        the land and the Indians will find their estate so fractionated that their utilization
        will be nearly impossible.

                                                                                                  1
        Fractionation has two primary negative impacts: it limits the Tribes’ productive use of the
land, and it is costly to the Federal Government to administer the approximately 4.1 million
fractionated interests on 99,000 fractionated tracts. Unless a Tribe owns at least a majority
interest in a fractionated tract, the Tribe must seek the approval of other owners in order to lease
the tract for economic development purposes. This need for approval has essentially stopped
economic development on some tracts of land. In addition, a significant portion of the Bureau of
Indian Affairs’ (BIA) and the Office of the Special Trustee for American Indians’ (OST) budgets
is expended to administer fractionated interests, as there are approximately 267,000 Individual
Indian Money account holders. If fractionated interests are consolidated, these financial
resources could be allocated to serve other Tribal needs.

        In recent years, Congress has passed legislation aimed at slowing the rate of
fractionation. For example, the American Indian Probate Reform Act (Act) of 2004 restated
Congress’ commitment to solve fractionation. It also stated Congress’ policy to prevent further
fractionation of trust allotments made to Indians, consolidate fractionated interests and
ownership of those interests into useable parcels, consolidate fractionated interests in a manner
that enhances Tribal sovereignty, promote Tribal self-sufficiency and self-determination, and
reverse the effects of the allotment policy on Indian Tribes. The Act broadened the applicability
of the Indian Land Consolidation Program (Program) and provided the Department and
landowners with new consolidation tools, such as gifting, selling, and exchanging interests with
co-owners.

        Although BIA has made progress, the Program has never been funded at a sufficient level
to significantly decrease the rate of fractionation Nationwide. The largest appropriation the
Program received in a single year was about $35 million in fiscal year (FY) 2005. The pending
settlement, however, provides the potential for funding that could make a significant impact.

Opportunities and Challenges

        Although fractionation may not be eliminated entirely by the settlement, it presents an
opportunity for significantly improving the long-standing problem of Indian land fractionation.
While some offices are creating plans specific to their offices, to take full advantage of this
opportunity, a coordinated planning effort among all of the parties involved is critical. To date,
the Department has not developed a comprehensive plan that will guide its efforts to reduce
Indian land fractionation.

         We found two main opportunities for the Department to ensure success in this endeavor:
improving communication and identifying needed resources. With a comprehensive approach
among the many offices involved (see Figure 2), the Department stands a far greater chance of
successfully completing land valuations, title conveyance, and purchases at probate, which are
all integral parts of resolving fractionation.




                                                                                                     2
Figure 2. Entities involved in Indian land consolidation activities.

Communication

        Although the Deputy Secretary’s Office and the Office of the Solicitor have been hesitant
to discuss their plans because of a court order that limits communications regarding the sale or
transfer of land, and the desire to not appear presumptuous about funds yet to be appropriated,
more sharing of information could be done internally. For example, specific information such as
the extent of fractionation, tract identification, and tract valuation has been requested by the
Deputy Secretary’s Office from separate offices within BIA and OST, without providing context
for the request. Thus, these individual offices do not have clear insight into the Department’s
efforts and overall strategy for Indian land consolidation activities.

        Strategic planning has been conducted independently within BIA’s Indian Land
Consolidation Center (ILCC), which heads the Department’s land consolidation efforts. While
such plans include an extensive amount of work in terms of Program goals and operations, they
were created independently within ILCC and without input from other offices such as OST’s
Office of Appraisal Services (OAS) and BIA’s Probate and Land Titles and Records offices.
Each of these offices plays a critical role in land consolidation activities such as land valuations,
purchases of undivided interests at probate, and title conveyance. Officials from these offices
indicated to us that they could see the benefit if these ILCC plans were shared.

        Other entities outside the Department will be affected by the settlement. Officials in the
Office of Management and Budget (OMB) have expressed a desire to provide input on the
strategic plan to ensure that the Administration’s goals, such as Tribal involvement and
performance measures for success, are reflected in the plan. In addition, Tribes and Tribal
organizations, such as the Intertribal Monitoring Association on Indian Trust (ITMA) indicated

                                                                                                        3
they could benefit from being involved in the strategic planning process and more effective
outreach, including Program purpose and activities, as well as estate planning and development
of reservation-wide land use plans.

        ILCC has made recent strides to include the many offices into strategic planning. For
example, in July 2010, ILCC initiated a meeting with BIA’s Division of Probate, the Office of
Appraisal Services (OAS), the Department’s Office of Minerals Evaluation (OME), and the
Office of Hearings and Appeals (OHA) to discuss future strategies for purchases of undivided
interests at probate. BIA’s Division of Probate prepares probate packages, while OAS and OME
provide surface and subsurface valuations for the undivided interests, and OHA rules on probate
decisions. In a 2-day meeting, these groups were able to identify obstacles involved in the
current process and identify means of mediating and streamlining steps for future purchases at
probate. The meeting resulted in a short-term goal of sharing with Administrative Law Judges
how appraisals are prepared and a long-term goal that would increase standardization through
OHA’s rulemaking process. Representatives from these offices are continuing to meet to
streamline appraisal processes.

        In addition to opportunities to share strategic planning activities, we also identified
opportunities for improvement of day-to-day information sharing among offices. Particularly, we
found ineffective sharing of information among BIA and OST offices. For example, while often
located in close proximity to each other, these offices must follow certain procedures before
information can be shared. We believe this ineffective sharing of information is the result of a
policy that requires information to be approved by the OST’s Chief of Staff before it can be
distributed outside of OST. For example, after multiple attempts, it took more than
2 months for the ILCC Director to obtain an appraisal inventory database from the OAS
Director. Although the OAS Director was willing to provide the database, he was unable to do so
due to a bottleneck resulting from this policy. Specifically, the existing database was not
provided to ILCC because the Acting Special Trustee incorrectly believed a memorandum issued
by the Deputy Secretary, regarding valuations, precluded them from sharing all valuation
information. The Department has an opportunity for OST and BIA to set aside such obstacles
and work together more closely.

        Due to delays, lack of control over personnel, and inefficiencies identified above, BIA
and OST have expressed a desire to reorganize other functions, such as Title and Appraisal,
under the ILCC. For example, a proposed policy change at BIA would allow the Program to
automatically apply title without involving the Division of Land Titles and Records. A key
element of internal controls, however, is separation of duties, whereby no one individual or
office has the ability to authorize, process, and review an entire transaction. We encourage each
Departmental office to recognize the expertise and the importance of the work done by the other
offices. Good communication should help to eliminate redundancy and reduce delays. More
importantly, the checks and balances provided by a separation of duties help to maintain integrity
and ensure public confidence.




                                                                                                 4
Resources

        The potential for a significant increase in workload requires the Department to look at
resource allocation. If resource allocation remains unchanged, successful implementation of
consolidation efforts may be impeded.

        In terms of staffing, ILCC is ready to address the potential increase in workload. Due to
an existing contract with the Chickasaw Nation Industries, ILCC has the option to quickly
address staffing needs through the use of contract employees. Other Departmental offices
involved in Indian land consolidation activities, however, do not have this same capacity. For
example, both OME and OAS report that they are understaffed. In some cases, this understaffing
has meant that offices are unable to keep up with current workload demands. While we did not
conduct analysis to confirm that current staffing levels are inadequate, if current workflow
experiences delays, this will only be exacerbated should the settlement be approved.

        The potential for increasing workloads will also require a robust information technology
infrastructure. For example, the Trust Accounting and Asset Management System (TAAMS) is
the system of record for land title and is used to process land acquisitions. Individuals expressed
concern that reports from TAAMS sometimes take an extended period of time to run,
particularly for land consolidation activities where a number of fractionated interests are often on
a single deed.

Recommendations

        On December 8, 2010, the President signed into law the Claims Resolution Act of 2010
which approved the Cobell settlement. Final approval by the court, however, may not occur until
mid-2011. In its December 3, 2010 response to our draft report the Department stated that it has
not thought it appropriate to be implementing a major new effort without final approval by the
court, but has charged a small group to begin looking at potential ways to administer the
program. While we acknowledged the Department’s desire to not appear presumptuous of funds
yet to be appropriated, this does not preclude the Department from conducting coordinated
planning efforts for a possible settlement. Furthermore, whether BIA’s existing Indian Land
Consolidation Program or a new expanded program is used to implement the Cobell settlement,
we recommend that the Department:

            1. Ensure that the Department’s Interim Cobell Team facilitates and coordinates the
               efforts of the many offices that will be involved in implementing the settlement.
               This team should gain an understanding of the needs of the various offices (e.g.,
               staffing, technology, etc.) and develop a strategy that is communicated to all
               involved.

               Department Response: Now that the Cobell settlement has been Congressionally
               approved, we agree that it will be important to coordinate the efforts of the
               various offices involved and to communicate strategies.




                                                                                                   5
   OIG Reply: We request that the Department provide a plan for implementing this
   recommendation, including target dates and responsible officials.

2. Provide affected offices within the Department and OMB an opportunity for input
   on BIA’s strategic plan for the Indian Land Consolidation Program.

   Department Response: We agree that affected offices within the Department and
   OMB should have input on this matter. However, we aim to treat the Cobell
   implementation effort as a unique project that will require a new plan, as opposed
   to a settlement that can simply be implemented using preexisting procedures to
   resolve land fractionation. For example, the draft report states that "The largest
   appropriation the [Indian Land Consolidation Program] received in a single year
   was about $35 million in fiscal year (FY) 2005." In contrast, a fund of $1.9 billion
   will now be available for land consolidation under the special appropriation
   associated with the Cobell settlement. We are not assuming that current structures
   can or should be used to implement this special, one-time, enormous effort,
   particularly since the settlement anticipates that the program will be scaled up
   relatively quickly, with the land consolidation program hopefully proceeding in
   the early years, in conjunction with other payouts under the settlement.

   OIG Reply: Although the Department agrees that affected offices should be
   provided an opportunity for input, the Department likewise acknowledges that the
   Cobell implementation effort will require a new plan as opposed to using
   preexisting procedures. Upon development of a strategic plan, we request that the
   Department provide documentation that affected offices and OMB have been
   given opportunities for input.

3. Provide Indian Tribes and Tribal organizations, such as the Intertribal Monitoring
   Association on Indian Trust, an opportunity to become more involved in the
   planning and implementation of land acquisition strategies.

   Department Response: Now that the Cobell settlement has been Congressionally
   approved, we agree with you that tribal engagement on implementation is crucial.
   The Department and Native American Plaintiffs in the Cobell lawsuit worked
   together during the settlement agreement phase and reached a shared
   commitment. The Department intends to enter into government-to-government
   consultations with Tribes as it develops its approach for implementing the Cobell
   settlement.

   OIG Reply: We request that the Department provide a plan for implementing this
   recommendation, including target dates and responsible officials.

4. Develop a communication plan to improve communication and more efficient
   sharing of information between BIA and OST.

   Department Response: We agree that a plan for improved and more efficient


                                                                                     6
   information sharing will be needed, particularly between the BIA and the OST
   offices, as well as other offices that will be involved in the Cobell settlement
   implementation process.

   OIG Reply: We request that the Department provide a plan for implementing this
   recommendation, including target dates and responsible officials.

5. Direct BIA to review the proposed policy allowing ILCC to automatically apply
   title to ensure that quality controls have not been compromised, given the risks
   associated with maintaining accurate title.

   Department Response: We agree that the BIA should review its proposed policy
   of restructuring the organization so that the title falls under the ILCC. However,
   we assume that virtually all policies and approaches developed under the prior,
   very limited land consolidation program need to be revisited in connection with
   the greatly scaled up, one-time program that needs to be developed in order to
   implement the Cobell settlement.

   OIG Reply: Although the Department agrees that BIA should review its
   proposed policy and assumes that all related policies and approaches as they relate
   to Cobell implementation be revisited, we request that the Department provide
   documentation on the nature and extent of policy reviews.

6. Direct BIA to monitor the expected increase in workload and number of TAAMS
   users and work with the TAAMS vendor to ensure any technical issues are
   addressed.

   Department Response: We agree, and it is our understanding that the BIA is
   already working to address this issue. It should be noted, however, that we are
   considering developing a special structure to implement the Cobell land
   consolidation program.

   OIG Reply: The Department agrees with the recommendation and states that BIA
   is already working to address this issue. The Department also states that it is
   considering developing a special structure to implement the Cobell land
   consolidation program. In either case, we request that the Department provide
   documentation supporting how these technical issues will be resolved, including
   target dates and responsible officials.




                                                                                      7
Appendix 1 – Offices Visited and Their Roles

 Bureau of Indian Affairs
 ILCC establishes policies and provides technical assistance and oversight of the Indian Land
 Consolidation Program (Program). Land acquisitions are processed by the Program’s two
 Central Acquisition Centers. The Program’s mission is to acquire as many fractionated
 interests as economically feasible and to consolidate these land interests into Tribal
 ownership to enable better Tribal utilization and management and promote and enhance
 Tribal self-determination, economic, social, and cultural development needs while reducing
 Government administrative costs.
 Land Titles and Records Offices (LTRO) are the official offices-of-record for all documents
 affecting title to Indian lands and for the determination, maintenance, and certified reporting
 of land title ownership.
 Division of Probate offices gather information regarding decedents’ family and property and
 prepare it for adjudication by OHA. After OHA issues a probate order, the Division works
 with other trust offices, such as OST and LTRO, to distribute the assets.
 Office of the Special Trustee for American Indians
 OAS conducts appraisals, appraisal reviews, and appraisal consulting of real property interests
 in support of the Department’s Indian trust asset management responsibilities.
 U.S. Department of the Interior
 The Office of the Solicitor, Division of Indian Affairs provides legal advice to BIA concerning
 the administration of Indian service programs.
 OHA handles the probating of Indian trust estates, ensuring that individual Indian interests in
 allotted lands, their proceeds, and other trust assets are conveyed to the decedents’ rightful
 heirs and beneficiaries.
 OME produces mineral valuations, which are needed to determine the minerals contribution
 to the fair market value of lands, for a number of Federal clients including OHA, ILCC, and
 OAS.
 Other Entities
 OMB performs budget development and execution, oversight of agency performance, and
 coordination and review of significant Federal regulations by executive agencies to reflect
 Presidential priorities.
 ITMA is a national consortium of 66 Tribes that was formed in 1990 to actively monitor the
 trust reform activities of the Federal Government. In FY 2008, OST gave ITMA a grant to
 conduct an outreach program to dialogue with Indian Country and solicit recommendations
 on ways to address a wide range of issues related to fractionated ownership of Indian land.
 ITMA submitted a report of its findings to BIA in January 2009.




                                                                                                   8
Appendix 2 – Department Response to the Draft Report




                                                       9
                           THE DEPUTY SECRETARY OF THE INTERIOR
                                            WASHINGTON




                                          December 3,2010


To:             Mary L. Kendall
                Acting Inspector General

From:           DavidJ.Ha~
                Deputy Sec~et1rf I

Subject:        Preliminary Comments on the Draft Evaluation Report: Coordination of
                Efforts to Address Indian Land Fractionation (WR-EV-BIA-0002-2010)

Thank you for the opportunity to provide comments on your draft report, "Coordination of
Efforts to Address Indian Land Fractionation." Your report is well timed. As you know,
Congress completed action just this week on the Claims Resolution Act 0/2010, which
authorized the settlement agreement of the Cobell v. Salazar class action lawsuit.

One of the primary thrusts of your report is a recommendation for improved internal and external
communication regarding the land consolidation program's strategic planning process. We agree
that good communication is very important, but it is unclear in your report whether some of the
communications-related comments are directed at the current, very modest Indian land
consolidation program that is operated by BIA, or whether they are directed at the potential
implementation of a vastly expanded program under the Cobell settlement. It appears that at
least some of the concerns are related to the latter. In that regard, it is important to note that until
the Cobell settlement passed Congress (and, indeed, until it is finally approved by the court-
which is not likely to occur until mid-20 11), our office has not thought it appropriate to begin
implementing the major new effort that will need to accompany the expenditure of $1.9 billion in
a new, Cobell-based land consolidation program. Accordingly, while we charged a small group
to begin to scope out how such a huge expansion of the program might be administered, we have
felt it important to not be presumptuous and therefore to not put in place new communications
protocols or to otherwise solicit input more broadly on what, until this week, remained very
much an unauthorized and unapproved prospective program. We would appreciate your report's
recognition of the unique context of its review of the land consolidation program in that regard.

We are in agreement with much of your report, which is organized around six recommendations.
The following comments will address each recommendation:

      I.     Ensure that the Department's Interim Cobell Team facilitates and coordinates
            the efforts of the many offices that will be involved in implementing the
            settlement. This team should gain an understanding of the needs of the various
            offices (e.g., staffing, technology, etc.) and develop a strategy that is
            communicated to all involved.
Response: Concur. Now that the Cobell settlement has been Congressionally approved, we
agree that it will be important to coordinate the efforts of the various offices involved and to
communicate strategies.


    II.    Provide affected offices within the Department and OMB an opportunity for
           input on BIA's strategic plan for the Indian Land Consolidation Program.

Response: Partially Concur. We agree that affected offices within the Department and OMB
should have input on this matter. However, we aim to treat the Cobell implementation effort as a
unique project that will require a new plan, as opposed to a settlement that can simply be
implemented using preexisting procedures to resolve land fractionation. For example, the draft
report states that "The largest appropriation the [Indian Land Consolidation Program] received in
a single year was about $35 million in fiscal year (FY) 2005." In contrast, a fund of$1.9 billion
will now be available for land consolidation under the special appropriation associated with the
Cobell settlement. We are not assuming that current structures can or should be used to
implement this special, one-time, enormous effort, particularly since the settlement anticipates
that the program will be scaled up relatively quickly, with the land consolidation program
hopefully proceeding in the early years, in conjunction with other payouts under the settlement.

    III.   Provide Indian Tribes and Tribal organizations, such as the Intertribal
           Monitoring Association on Indian Trust, an opportunity to become more
           involved in the planning and implementation of land acquisition strategies.

Response: Concur. Now that the Cobell settlement has been Congressionally approved, we
agree with you that tribal engagement on implementation is crucial. The Department and Native
American Plaintiffs in the Cobelllawsuit worked together during the settlement agreement phase
and reached a shared commitment. The Department intends to enter into government-to-
government consultations with Tribes as it develops its approach for implementing the Cobell
settlement.

   IV.     Develop a communication plan to improve communication and more efficient
           sharing of information between BIA and OST.

Response: Concur. We agree that a plan for improved and more efficient information sharing
will be needed, particularly between the BIA and the OST offices, as well as other offices that
will be involved in the Cobell settlement implementation process.

   V.       Direct BIA to review the proposed policy allowing ILCC to automatically apply
           title to ensure that quality controls have not been compromised, given the risks
           associated with maintaining accurate title.


Response: Partially Concur. We agree that the BIA should review its proposed policy of
restructuring the organization so that the title falls under the ILCC. However, we assume that
virtually all policies and approaches developed under the prior, very limited land consolidation
program need to be revisited in connection with the greatly scaled up, one-time program that
needs to be developed in order to implement the Cobell settlement.

   VI.      Direct BIA to monitor the expected increase in workload and number of
           TAAMS users and work with the T AAMs vendor to ensure any technical issues
           are addressed.                                    '

Response: Concur. We agree, and it is our understanding that the BIA is already working to
address this issue. It should be noted, however, that we are considering developing a special
structure to implement the Cobelliand consolidation program.
Appendix 3 – Status of Report Recommendations

Recommendation      Status                      Action Required
     1, 3, 4        Management concurs;         Provide a plan for completing the action,
                    Additional information      including target dates and responsible
                    requested                   officials.
        2           Management partially        Provide documentation that affected
                    concurs; Additional         offices and OMB have been given
                    information requested       opportunities for input.
        5           Management partially        Provide documentation on the nature
                    concurs; Additional         and extent of policy reviews.
                    information requested
        6           Management concurs;         Provide documentation supporting how
                    Additional information      technical issues will be resolved,
                    requested                   including target dates and responsible
                                                officials.




                                                                                      13
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
